             U.S. Department of the Interior
             Office of Inspector General




Advisory Report:



                Evaluation of
                Concessioner
             Special Accounts,
            National Park Service




June 2002                     No. 2002-I-0032
                                                                  H-IN-NPS-004-01-D


           United States Department of the Interior

                            Office of Inspector General
                                  Eastern Region Audits
                                    381 Elden Street
                                        Suite 1100
                                 Herndon, Virginia 20170



                                                                          June 7, 2002

                                Advisory Report
Memorandum

To:        Director, National Park Service

From:      Robert Romanyshyn
           Regional Audit Manager, Eastern Region

Subject:   Advisory Report on Evaluation of Concessioner Special Accounts, National
           Park Service (No. 2002-I-0032)

This report presents the results of our evaluation of National Park Service (NPS)
concessioner special accounts at Grand Canyon, Yellowstone, and Zion National Parks;
Glen Canyon National Recreational Area; and Independence National Historic Park. Our
objective was to determine whether expenditures from these accounts during fiscal year
2000 complied with contract provisions and NPS procedures. The scope and
methodology of our review are detailed in the Appendix.

We found that special account expenditures generally complied with contract provisions
and NPS procedures; however, NPS could improve its oversight of the accounts. During
our review, we also obtained information which indicated that NPS faces significant
obstacles in assuming responsibility for administering capital improvements projects
under the Omnibus Act of 1998. These matters are discussed in further detail under
Results of Evaluation.
                                           Background

Concessioner special accounts were created under Section 7 of the National Park Service
Concessions Policy Act of 1965 (Public Law 89-249) to provide for either the repair and
improvement of government-owned structures assigned to concessioners or to fund
improvements to park property which directly support concession operations. Under
contracts negotiated with the parks, concessioners deposited funds into special accounts
at local banks and were responsible for using these funds to contract for and manage
capital improvement projects for property and facilities used in concession operations.
Park superintendents were to approve account expenditures. The total special account
balance for all parks in Fiscal Year 2000 was $60.7 million, over half of which was in the
5 parks we reviewed.

In November 1998, Congress enacted the National Park Service Omnibus Management
Act (16 U.S.C.§ 5901), which repealed the 1965 Act, eliminated concessioner special
accounts, and transferred responsibility for capital improvements to the parks. In lieu of
special accounts, the 1998 Act authorized parks to collect franchise fees from
concessioners and to use the funds “for visitor services and for purposes of funding high-
priority and urgently necessary resource management programs and operations.” The Act
also allowed the Secretary of the Interior to retain 20 percent of the franchise fees for
NPS-wide activities, with the remaining 80 percent to be used by the park where the fees
were collected.

Provisions of the 1998 Act are being phased in as contracts with concessioners expire.
Until current contracts expire and new franchise fee contracts are negotiated,
concessioners will continue to deposit funds into the special accounts. The general time
frame for phasing out special accounts will be over the next 3 to 5 years. As of the end of
Fiscal Year 2001, national parks had collected $42.7 million in 80 percent franchise fees
and spent $4.6 million.

The NPS Office of Concessions Program in Washington, D.C., develops concession
policies, procedures, and programs. The Concessions Program Center in Lakewood,
Colorado, which reports to the Washington Office, provides technical assistance to parks
and regions.1




1
 Technical assistance includes franchise fee calculations, insurance replacement cost estimates, and
reconciling accounts.


                                                     2
                                  Results of Evaluation

NPS Oversight of Special Accounts
At the five parks reviewed,2 we found that special account expenditures for fiscal year
2000 generally complied with contract provisions and NPS concession procedures. We
also found that appropriate projects were in place for use of the remaining funds. We
examined a sample of 95 special account expense items worth $8.34 million and did not
find any material inappropriate expenditures.

We did observe, however, that weaknesses in NPS oversight of the accounts increased
the opportunity for errors and irregularities. For example, NPS concessions staff at the 5
national parks and the Denver Program Center offices did not consistently obtain or
review all of the documentation necessary to ensure that expenditures were appropriate.
Although the parks may get copies of invoices, most parks we reviewed do not reconcile
invoice costs to expenditures shown on the bank statements. The Program Center
reconciles bank statements, but usually does not receive invoices or project approvals.
NPS should increase oversight of special account funds, at least comparing expenditures
to project budgets as the special accounts are phased out, to ensure that the funds are
expended efficiently.

Obstacles in Assuming Responsibility for Administering Capital
Improvement Projects
The following obstacles to NPS’ ability to assume responsibility for capital improvement
projects under the 1998 Act were identified:

        Lack of Contracting Resources. Park officials expressed concern that they
        lacked the necessary expertise to administer large capital improvement programs.
        The NPS National Leadership Council,3 which addresses major policy and
        program issues confronting NPS, recognized that NPS lacks “organizational
        capacity” (concessions contracting staffing and skills at all operational levels)4 to
        implement the 1998 Act.

        Lack of Planning. The parks we reviewed had made little or no preparation to
        administer capital improvement projects. Staff expressed uncertainty as to who
        would be responsible for contracting, what procedures were needed for project


2
  We visited Grand Canyon National Park, Glen Canyon National Recreational Area, and Independence
National Historic Park. We conducted telephone interviews with concessioner staff at Yellowstone and
Zion National Parks and reviewed documents provided to us.
3
  The Council is composed of the NPS Director, Deputy Director, Associate Directors, and Regional
Directors, who meet quarterly to address major policy and program issues.
4
  NLC Journal, Volume 1 Number 3, “Experience Your America,” April 23, 2001.


                                                   3
        approval and fund expenditures, and how the new franchise fee program would
        impact the amount of funding available to the parks.

        Contract Negotiation Backlog And Funding Shortfall. NPS has a backlog in
        negotiating concession contracts. It has been using funding in the account for the
        20 percent franchise fees retained for NPS-wide activities to develop a national
        strategy to address this backlog, as well as the oversight function. NPS has
        engaged an outside business advisor to assist it in mitigating significant financial
        risks associated with possessory interest and related potential arbitration of its
        major concession contracts; to enhance its contracting and contract oversight
        procedures; and to further NPS efforts to define and document all contracting
        related items to ensure procedural consistency. However the 20 percent account
        lacks sufficient funds to cover the needs of specific pending concession
        contracting actions, including prospectus development needs and arbitrations.

As a result, the National Leadership Council agreed to allow the temporary use of 80
percent funds to cover the shortfall. Beginning in fiscal year 2002, the Office of
Concessions Program is expected to use an estimated $35.2 million of 80 percent funding
and other funding sources for pending concessions contract negotiations. The funds will
come from the 80 percent accounts and other funding sources of parks with concession
contracts expiring over the next 5 years. In addition, the concessions program will need
$1.5 million in FY 2002 for initial contract review and valuation methodology
development and $17.1 million in FY 2003-2005 for contract oversight costs.5

These obstacles could significantly delay much needed improvements to visitor facilities.
Of the $42.7 million in park 80 percent franchise fees collected since the franchise fees
were initiated in 1999, the parks have spent only $4.6 million. NPS has hired an outside
consultant to address concession issues on a national level. We believe it is essential that
planning to resolve these uncertainties be initiated immediately to minimize any negative
impact on services and facilities for park visitors as the transition takes place.


In the March 26, 2002 exit conference, the NPS Concessions Program Manager
concurred with the contents of the report. A response to the Office of Inspector General
is not required, since this report does not contain any recommendations.

This advisory report will be listed in our semiannual report to the Congress, as required
by Section 5(a) of the Inspector General Act (5 U.S.C. app. 3).




5
 According to the NPS Concessions Program Manager, the FY 2002 costs for contract negotiations and
oversight are expected to be significantly lower than originally estimated.


                                                  4
                                                                             Appendix

Scope and Methodology
We performed our evaluation from July through October 2001, with site visits to the NPS
headquarters offices in Washington, D.C., Grand Canyon National Park, Glen Canyon
National Recreational Area, and Independence National Historic Park. We also
conducted telephone interviews with concessioner staff at Yellowstone and Zion National
Parks and reviewed documents they provided to us. These parks were judgmentally
selected based on the appearance of unusual expenditures and large account balances for
fiscal year 2000. The NPS Concessions Program Washington headquarters, the
Concessions Program Center in Lakewood, Colorado, and the Accounting Operations
Center in Herndon, Virginia also provided information.

Our evaluation was conducted in accordance with the “Government Auditing Standards,”
issued by the Comptroller General of the United States. Accordingly, we included tests
or reviews of records and internal controls that were considered necessary under the
circumstances.



Prior Audit Coverage
We identified the following General Accounting Office and Office of Inspector General
reports, issued during the past 5 years, which were related to our review.

       Office of Inspector General Survey Report No. 01-I-116. Dated January 2001,
       “Collection and use of Franchise Fees, National Park Service.” The report made
       2 recommendations considered resolved at issue date: Ensure 1) guidelines for use
       of park-specific funds are revised to eliminate the stipulation that concession-
       related needs are the top priority for fund usage; and 2) concessioner
       improvement accounts are eliminated when new contracts are issued.

       Office of Inspector General Report No. 98-I-389, Dated March 1998,
       “Concessioner Improvement Accounts, National Park Service.” The report stated
       the Park Service had not provided clear, sufficient, and timely guidance to ensure
       that account funds were used appropriately and that the Park Service allowed
       concessioners to use these funds before procedures were issued. Also,
       concessioners made improper deductions from recorded gross receipts in
       determining the amounts required to be deposited into improvement accounts.

       GAO Audit Report No. GAO/RCED-96-90, dated May 1996, “Information on
       Special Account Funds at Selected Park Units.” The report stated that Park
       Service officials acknowledged they did not have a system in place to routinely or
       systematically collect information on concessioners’ special accounts, but planned
       to implement a computerized tracking system to monitor the accounts.


                                            5
                             How to Report
                 Fraud, Waste, Abuse and Mismanagement
Fraud, waste, and abuse in Government are the concern of everyone B Office of Inspector
General staff, Departmental employees, and the general public. We actively solicit allegations
of any inefficient and wasteful practices, fraud, and abuse related to Departmental or insular
area programs and operations. You can report allegations to us by:
              Mail:          U.S. Department of the Interior
                             Office of Inspector General
                             Mail Stop 5341-MIB
                             1849 C Street, NW
                             Washington, DC 20240
              Phone:         24-Hour Toll Free           800-424-5081
                             Washington Metro Area       202-208-5300
                             Hearing Impaired            202-208-2420
                             Fax                         202-208-6023
                             Caribbean Region            703-487-8058
                             Northern Pacific Region     671-647-6060
              Internet:




                           U.S. Department of the Interior
                             Office of Inspector General
                                 1849 C Street, NW
                               Washington, DC 20240
                                       www.doi.gov
                                      www.oig.doi.gov
